<html>
<title> - GROWING A HEALTHY NEXT GENERATION: EXAMINING FEDERAL CHILD NUTRITION PROGRAMS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   GROWING A HEALTHY NEXT GENERATION:
               EXAMINING FEDERAL CHILD NUTRITION PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND HUMAN SERVICES


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 12, 2019

                               __________

                            Serial No. 116-8

                               __________

      Printed for the use of the Committee on Education and Labor

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-662 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="20504f604355535448454c500e434f4d0e">[email&#160;protected]</a>                     
              
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON CIVIL RIGHTS AND HUMAN SERVICES

                  SUZANNE BONAMICI, OREGON, Chairwoman

Raul M. Grijalva, Arizona            James Comer, Kentucky,
Marcia L. Fudge, Ohio                  Ranking Member
Kim Schrier, Washington              Glenn ``GT'' Thompson, 
Jahana Hayes, Connecticut                Pennsylvania
David Trone, Maryland                Elise M. Stefanik, New York
Susie Lee, Nevada                    Dusty Johnson, South Dakota
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 12, 2019...................................     1

Statement of Members:
    Bonamici, Hon. Suzanne, Chairwoman, Subcommittee on Civil 
      Rights and Human Services..................................     1
        Prepared statement of....................................     3
    Comer, Hon. James, Ranking Member, Subcommittee on Civil 
      Rights and Human Services..................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Berlew-O'Meara, Ms. Nikki, Wilkes-Barre, PA..................    29
        Prepared statement of....................................    31
    Johnson, Ms. Cheryl, MS, RD, LD, Director of Child Nutrition 
      and Wellness, Kansas State Department of Education.........    17
        Prepared statement of....................................    19
    Martin, Ms. Donna, EdS, RDN, LD, SNS, FAND, Director of 
      School Nutrition Programs, Burke County, Georgia Public 
      Schools....................................................    23
        Prepared statement of....................................    25
    Ochoa, Dr. Eddie Jr., M.D., Associate Professor of 
      Pediatrics, University of Arkansas for Medical Sciences 
      Community Pediatrics Medical Director, Arkansas Children's 
      Hospital...................................................     8
        Prepared statement of....................................    11

Additional Submissions:
    Mr. Comer:
        Letter dated March 11, 2019, from the Council of the 
          Great City Schools.....................................    53
        Letter dated March 12, 2019, from the Council of the 
          National School Boards Association (nsba)..............    54
    Dr. Ochoa:
        Appendix 2: Estimating the Health-Related Costs of Food 
          Insecurity and Hunger..................................    56
        Preventing Chronic Disease...............................    74
    Scott, Hon. Robert C. ``Bobby'', a Representative in Congress 
      from the State of Virginia:
        Article: Effect of the Healthy Hunger-Free Kids Act on 
          the Nutritional Quality of Meals Selected by Selected 
          by Students and School Lunch Participation Rates.......    87
        Letter dated January 29, 2018............................    93
        Questions submitted for the record 



    Thompson, Hon. Glenn, a Representative in Congress from the 
      State of Pennsylvania:
        Article: The Guardian....................................    97
        Article: Full-fat Dairy May Reduce Obesity Risk..........   100
        Article: Full-fat Dairy May Actually Benefit Heart Health   101
    Questions submitted for the record by:
        Chairwoman Bonamici......................................   107
        Schrier, Hon. Kim, a Representative in Congress from the 
          State of Washington....................................   110
        Shalala, Hon. Donna E., a Representative in Congress from 
          the State of Florida 



        Omar, Hon. Ilhan, a Representative in Congress from the 
          State of Minnesota.....................................   108
    Responses to questions submitted for the record by:
        Ms. Martin...............................................   112
        Dr. Ochoa................................................   117

 
                   GROWING A HEALTHY NEXT GENERATION:
               EXAMINING FEDERAL CHILD NUTRITION PROGRAMS

                              ----------                              


                        Tuesday, March 12, 2019

                        House of Representatives

                   Committee on Education and Labor,

            Subcommittee on Civil Rights and Human Services

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 2175, Rayburn House Office Building. Hon. Suzanne Bonamici 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Bonamici, Schrier, Hayes, Trone, 
Lee, Comer, Thompson, Stefanik, and Johnson.
    Also present: Representatives Shalala, Grothman, Allen, 
Watkins, Omar, Scott, and Foxx.
    Staff present: Tylease Alli, Chief Clerk; Nekea Brown, 
Deputy Clerk; Ilana Brunner, General Counsel Health and Labor; 
Emma Eatman, Press Aide; Alison Hard, Professional Staff 
Member; Carrie Hughes, Director of Health and Human Services; 
Stephanie Lalle, Deputy Communications Director; Andre Lindsay, 
Staff Assistant; Richard Miller, Director of Labor Policy; Max 
Moore, Office Aid; Veronique Pluviose, Staff Director; Banyon 
Vassar, Deputy Director of Information Technology; Katelyn 
Walker, Counsel; Cyrus Artz, Minority Parliamentarian, Marty 
Boughton, Minority Press Secretary; Courtney Butcher, Minority 
Coalitions and Members Services Coordinator; Bridget Handy, 
Minority Legislative Assistant; Blake Johnson, Minority Staff 
Assistant; Amy Raaf Jones, Minority Director of Education and 
Human Resources Policy; Hannah Matesic, Minority Legislative 
Operations Manager; Kelley McNabb, Minority Communications 
Director; Jake Middlebrooks, Minority Professional Staff 
Member; Brandon Renz, Minority Staff Director; Mandy 
Schaumburg, Minority Chief Counsel and Deputy Director of 
Education Policy; and Meredith Schellin, Minority Deputy Press 
Secretary and Digital Advisor.
    Chairwoman BONAMICI. The committee on Education and Labor 
will come to order. Welcome, everyone. I note that a quorum is 
present. I ask unanimous consent that Representative Shalala of 
Florida, Representative Omar of Minnesota, and Representative 
Grothman of Wisconsin be permitted to participate in today's 
subcommittee hearing with the understand that their questions 
will come only after all members of the Subcommittee on Civil 
Rights and Human Services on both sides of the aisle who are 
present have had an opportunity to question the witnesses.
    Without objection, so ordered.
    The committee is meeting today in a hearing to hear 
testimony on Growing a Healthy Next Generation, Examining 
Federal Child Nutrition Programs. Pursuant to committee rule 7C 
opening statements are limited to the chair and ranking member. 
This allows us to hear from our witnesses sooner and provides 
all members with adequate time to ask questions. I recognize 
myself now for the purpose of making an opening statement.
    We are here today to discuss our responsibility to make 
sure that all children have access to healthy food, all year 
round in and out of the classroom, and to discuss why doing so 
is a good investment.
    More than 70 years ago, Congress passed the National School 
Lunch Act as, and I quote, ``a measure of national security, to 
safeguard the health and well-being of the Nation's children.''
    Through the enactment of this first Federal child nutrition 
program, Congress recognized that feeding hungry children was a 
moral imperative and a vital tool to protect the health and 
security of our Nation.
    Kids, families, and communities all do better when kids 
have nutritious food that helps them learn, grown, and thrive. 
Studies have found that healthier students are likely to have 
fewer absences and disciplinary issues.
    When children have consistent access to nutritious food it 
improves their health and wellbeing from early childhood 
through adulthood. This, in turn, results in substantial long-
term savings in healthcare and education.
    Roughly 15 million households face food insecurity today. 
In my home State of Oregon, one in five kids live in a 
household where financial hardship makes it difficult to put 
food on the table. Child nutrition programs remain critical to 
preventing child hunger and setting a strong foundation for the 
next generation.
    Today, child nutrition standards and programs like the 
National School Lunch Program, School Breakfast Program, and 
Child and Adult Care Feeding Program, and the Summer Food 
Service Program provide healthy meals for more than 30 million 
children in all 50 States all throughout the year. In Oregon, 
nearly 300,000 students participated in the National School 
Lunch Program, and nearly 150,000 students participated in the 
School Breakfast program in the school year 2017 to `18.
    These programs have historically enjoyed bipartisan support 
in Congress and in communities across the country. We know that 
many communities do face challenges in feeding their children, 
and as a Congress, we should do more, not less, to address 
these issues. Unfortunately, yesterday the President made clear 
that he does not share these goals.
    Under the President's budget proposal, roughly 1.3 million 
additional children would go without free school meals. That is 
a lot of hungry children. This hearing will be an opportunity 
for all Members to hear about why these programs are vital to 
the health and success of communities across the country from 
Oregon to Kentucky and everywhere in between.
    I hope this hearing is a first step toward renewing the 
historically bipartisan commitment to childhood nutrition, and 
I look forward to hearing more about these important programs. 
Congress and this Committee have a responsibility to make sure 
that every child has access to a quality education. Child 
nutrition programs are an important part of making sure that 
education results in every child having the foundation for a 
healthy and productive future.
    I want to thank all of our witnesses for being with us here 
today and I look forward to your testimony. I now recognize the 
distinguished Ranking Member Mr. Comer for the purpose of 
making an opening statement.
    [The statement of Chairwoman Bonamici follows:]

 Prepared Statement of Hon. Suzanne Bonamici, Chairwoman, Subcommittee 
                   on Civil Rights and Human Services

    We are here today to discuss our responsibility to make sure that 
all children have access to healthy food, all year long, in and out of 
the classroom, and to discuss why doing so is a good investment.
    More than 70 years ago, Congress passed the National School Lunch 
Act as and I quote ``a measure of national security, to safeguard the 
health and well-being of the Nation's children.''
    Through the enactment of this first Federal child nutrition 
program, Congress recognized that feeding hungry children was a moral 
imperative and a vital tool to protect the health and security of our 
Nation.
    Kids, families, and communities all do better when kids have 
nutritious food that helps them learn, grown, and thrive. Studies have 
found that healthier students are likely to have fewer absences and 
disciplinary issues.
    When children have consistent access to nutritious food, it 
improves their health and wellbeing from early childhood through 
adulthood. This, in turn, results in substantial long-term savings in 
health care and education.
    Roughly 15 million households face food insecurity today. In my 
home State of Oregon, 1 in 5 kids live in a household where financial 
hardship makes it difficult to put food on the table. Child nutrition 
programs remain critical to preventing child hunger and setting a 
strong foundation for the next generation.
    Today, child nutrition standards and programs like the National 
School Lunch Program, School Breakfast Program, the Child and Adult 
Care Feeding Program, and the Summer Food Service Program provide 
healthy meals for more than 30 million children, in all 50 States, all 
throughout the year. In Oregon, nearly 300,000 students participated in 
the National School Lunch Program, and nearly 150,000 students 
participated in the School Breakfast program in school year 2017 to 
2018.
    These programs have historically enjoyed bipartisan support in 
Congress and in communities across the country. We know that many 
communities do face challenges in feeding their children, and as a 
Congress, we should do more not less to address these issues. 
Unfortunately, yesterday the President made clear he does not share 
these goals.
    Under the president's budget proposal, roughly 1.3 million children 
would go without free school meals. That is a lot of hungry children. 
This hearing will be an opportunity for all Members to hear about why 
these programs are vital to the health and success of communities 
across the country from Oregon to Kentucky and everywhere in between.
    I hope this hearing is a first step toward renewing the 
historically bipartisan commitment to childhood nutrition, and I look 
forward to hearing more about these important programs. Congress and 
this Committee have a responsibility to make sure that every child has 
access to a quality education. Child nutrition programs are an 
important part of making sure that education results in every child 
having the foundation for a healthy and productive future.
    I want to thank all of our witnesses for being with us today; I 
look forward to your testimony. I now yield to the Ranking Member, Mr. 
Comer.
                                 ______
                                 
    Mr. COMER. Thank you, Madam Chairman. I would like to thank 
my colleagues across the aisle for holding today's hearing. 
Before coming to Congress I served as Kentucky's Commissioner 
of Agriculture where I worked with school food service 
personnel from school districts across the Commonwealth to 
promote initiatives, including the Farm to School Program, 
encouraging fresh Kentucky proud foods to be served in local 
cafeterias.
    As I met with these local administrators they consistently 
emphasized the crucial role that child nutrition programs play 
in supporting kids' health development, especially the free and 
reduced price meals offered through the Federal School Meal 
Programs.
    Free and reduced prices meals ensure that children from low 
income households have reliable access to nutritious breakfasts 
and lunches while at school. Each school year nearly 30 million 
lunches are served to students each day with most participants 
receiving a free or reduced price meal. Program participation 
has been steadily rising for decades, but in 2012 the Obama 
Administration finalized an onslaught of Federal mandates on 
school nutrition, delivering a blow to many cafeteria 
operations. Schools had to overhaul their menu programming, 
including meeting new requirements that limit the kind of milk 
they can offer, mandate the color of vegetables they must serve 
and limit the type of grains they must use.
    Since the Obama Administration enacted the regulations 
housed in the Healthy and Hunger-Free Kids Act school lunch 
program operating costs have risen while National program 
participation has dropped. While we would hope that means there 
are fewer hungry children in this country we have reason to 
believe that is not the case. School districts already tasked 
with operating on a tight budget now face higher cafeteria 
operation costs, onerous compliance rules, and mounting food 
waste problem as students pass up the food that cafeterias are 
now required to serve.
    When kids are at school they do not have a parent there 
encouraging them to eat the green peas on their plate. And 
while I know cafeteria professionals are doing all they can to 
get kids to eat their vegetables the truth is some kids just 
are not going to try them. However well-intentioned these 
requirements may be they are limiting program effectiveness and 
causing students to forgo the meals they need. Kids deserve 
health and nutritious meals at school, but if the Federal 
Government mandates meals that students will not eat than 
Washington is categorically failing to combat hunger. For these 
reasons Agriculture Secretary Sonny Perdue recently finalized 
new rules easing requirements on sodium, milk, and whole 
grains.
    School districts will benefit from these eased requirements 
and Congress should take note. While many folks found ways to 
help limit waste and increase participation I hope this new 
limited flexibility from USDA will boost meaningful 
participation in these programs and result in less tax payer 
dollars being thrown straight into the cafeteria trashcan. 
Congress should work with these States to provide school 
districts with greater latitude over their offerings. By 
delivering this flexibility and limiting burdensome paperwork 
school districts will be able to customize their cafeteria 
menus to give the students they know and serve health options 
they will enjoy.
    As a farmer myself, I understand the importance of 
supporting local farmers by providing school access to local 
farm fresh ingredients, and with three young children in public 
schools I certainly understand the duty we have to educate our 
growing children about eating balanced meals. I look forward to 
today's conversation and am hopeful we can find a solution that 
helps lower program costs, eliminates food waste, and ensures 
that students have access to nutritious, enjoyable meals.
    [The statement of Mr. Comer follows:]

Prepared Statement of Hon. James Comer, Ranking Member, Subcommittee on 
                    Civil Rights and Human Services

    Thank you for yielding.
    I'd like to thank my colleagues across the aisle for holding 
today's hearing. Before coming to Congress, I served as Kentucky's 
Agriculture Commissioner where I worked with school food service 
personnel from school districts across the commonwealth to promote 
initiatives including the Farm to
    School Program, encouraging fresh, ``Kentucky Proud'' foods to be 
served in local cafeterias. As I met with these local administrators, 
they consistently emphasized the crucial role that child nutrition 
programs play in supporting kids' healthy development, especially the 
free and reduced-priced meals offered through the Federal school meal 
programs.
    Free and reduced-price meals ensure that children from low-income 
households have reliable access to nutritious breakfasts and lunches 
while at school. Each school year, nearly 30 million lunches are served 
to students each day, with most participants receiving a free or 
reduced-price meal.
    Program participation has been steadily rising for decades, but in 
2012, the Obama Administration finalized an onslaught of Federal 
mandates on school nutrition, delivering a blow to many cafeteria 
operations.
    Schools had to overhaul their menu programming, including meeting 
new requirements that limit the kind of milk they can offer, mandate 
the color of vegetables they must serve, and limit the types of grains 
they must use.
    Since the Obama Administration enacted the regulations housed in 
the Healthy and Hunger-Free Kids Act, School Lunch Program operating 
costs have risen while national program participation has dropped. 
While we would hope that means there are fewer hungry children in this 
country, we have reason to believe that's not the case.
    School districts, already tasked with operating on a tight budget, 
now face higher cafeteria operation costs, onerous compliance rules, 
and a mounting food waste problem as students pass up the food that 
cafeterias are now required to serve.
    When kids are at school, they don't have a parent there encouraging 
them to eat the green peas on their plate. And while I know cafeteria 
professionals are doing all they can to get kids to eat their 
vegetables, the truth is some kids just aren't going to try them. 
However well-intentioned these requirements may be, they are limiting 
program effectiveness and causing students to forgo the meals they 
need. Kids deserve healthy and nutritious meals at school, but if the 
Federal Government mandates meals that students won't eat, then 
Washington is categorically failing to combat hunger.
    For these reasons, Agriculture Secretary Sonny Perdue recently 
finalized new rules easing requirements on sodium, milk, and whole 
grains. School districts and students will benefit from these eased 
requirements, and Congress should take note.
    While many folks found ways to help limit waste and increase 
participation, I hope this new, limited flexibility from USDA will 
boost meaningful participation in these programs and result in less 
taxpayer dollars being thrown straight into the cafeteria trashcan.
    Congress should work with the States to provide school districts 
with greater latitude over their offerings. By delivering this 
flexibility and limiting burdensome paperwork, school districts will be 
able to customize their cafeteria menus to give the students they know 
and serve healthy options they will enjoy.
    As a farmer myself I understand the importance of supporting local 
farmers by providing schools access to local, farm-fresh ingredients, 
and with three young children in public schools, I certainly understand 
the duty we have to educate our growing children about eating balanced 
meals.
    I look forward to today's conversation and am hopeful we can find a 
solution that helps lower program costs, eliminates food waste, and 
ensures that students have access to nutritious, enjoyable meals.
                                 ______
                                 
    Mr. COMER. Madam Chairman, I ask unanimous consent to 
insert two letters into the record. One from the council of the 
Great City Schools and the National School Board Association 
supporting the new school meal regulatory flexibility.
    Chairwoman BONAMICI. Without objection.
    Mr. COMER. And with that I yield back.
    Chairwoman BONAMICI. Thank you, Mr. Ranking Member. Without 
objection all other members who wish to insert written 
statements into the record may do so by submitting them to the 
Committee clerk electronically in Microsoft Word format by 5 
p.m. on March 25, 2019.
    I will now introduce our witnesses. Dr. Eduardo Ochoa is 
the principle investigator for the Children's Health Watch 
Little Rock site at Arkansas Children's Hospital. His research 
interests include Latino health, health disparities, children 
with special health needs, and community engagement. He is a 
fellow of the American Academy of Pediatrics and a tenured 
associate professor of pediatrics at the University of Arkansas 
for Medical Sciences.
    Nikki Berlew O'Meara is a 33-year old mother of two who 
lives in Wilkes Barre, Pennsylvania. Her son James is in the 
third grade and her daughter Natalie is in kindergarten. They 
both love to do Cub Scouts, read books, and go swimming. An 
active volunteer, Berlew-O'Meara is secretary of her children's 
parent/teacher association, assistant den leader for a lion 
scout den, and a board member for Queer Northeastern 
Pennsylvania Acts. Berlew-O'Meara holds a bachelor of science 
in psychology from, this is going to be hard, Misericordia. Was 
I close?
    Ms. BERLEW-O'MEARA. Very close, ma'am. Misericordia.
    Chairwoman BONAMICI. Misericordia University.
    Ms. BERLEW-O'MEARA. It is tiny.
    Chairwoman BONAMICI. Now, I am pleased to recognize my 
colleague Representative Allen to introduce his constituent who 
is appearing before us as a witness today.
    Mr. ALLEN. Thank you, Chairwoman Bonamici and Ranking 
Member Comer for allowing me to cross committees. I am on two 
other subcommittees here on the Educational Labor Committee, 
but I had to be here this morning, and when I say I had to be 
here I was not going to miss this because one of my favorite 
people are here.
    I am pleased to introduce my friend Donna Martin who is a 
registered dietician and nutritionist and is currently the 
director of Burke County School Nutrition Program in 
Waynesboro, Georgia. And the past president of the Academy of 
Nutrition and Dietetics. She has worked in the area of school 
nutrition for over 25 years in both large systems with over 
38,000 students, and currently in a small system with 4,500 
students.
    Donna's school system operates the National School 
Breakfast Program, the National School Lunch Program, the After 
School at Risk Snack Program, the Fresh and Fruit, Vegetable 
Grant Program, the Supper Program, and the Summer Feeding 
Program. Donna has long been dedicated to improving the health 
of her students at school by offering nutritionally balances 
meals that also teach the students about good nutrition.
    Donna has a master's degree in clinical nutrition from the 
University of Alabama in Birmingham, and a specialist degree in 
administration and supervision from Augusta University in 
Augusta, Georgia. In 2006 Donna received a Summer Sunshine 
Award for the southeast region of the United States from USDA 
for innovation in implementing the Summer Food Service Program. 
Burke County is a very large rural county. In fact, it's the 
largest county in our district. They decided to serve the 
children over the summer out of school buses that made stops 
throughout the county so that kids would have access to summer 
meals.
    Donna was also awarded the 2016 Golden Radish Award for the 
State of Georgia because of her efforts in the farm to school 
movement. I have visited Donna's district on numerous occasions 
to eat lunch and to participate in her farm to school events. 
In fact, as a Member of Congress I have never missed that 
event, and good lord willing I will never miss that event. It 
is my favorite time. Obviously, you can tell that I do love 
good food, and it is the best.
    And these students are just, I mean, in fact, they grow 
their own food there. I mean, it is just incredible. But I have 
seen first-hand how the students love her program. Thank you, 
Donna, for sharing your testimony today, and it is always great 
to see you.
    Chairwoman BONAMICI. Thank you, Representative Allen. I am 
pleased to recognize my colleague Representative Watkins to 
briefly introduce his constituent who is appearing before us as 
a witness today.
    Mr. WATKINS. Thank you, Chair, and thank you ranking 
members for allowing me to introduce my constituent. It is a 
better panel because of you, Ms. Johnson, and we are a 
healthier state because of you. Thank you for being here and 
god bless you.
    Ms. Johnson is the director of child nutrition and wellness 
for the Kansas State Department of Education. As director, she 
serves as the liaison between the State Department of Education 
and the Food and Nutrition Service at the USDA. Cheryl and her 
team administer the nutrition programs in Kansas and then 
provide leadership and training and monitoring for over 800 
local sponsors who provide over 102 million meals and snacks to 
Kansas children in 2018 alone. They strive to make nutrition 
and wellness an integral part of a student's success.
    Cheryl has worked as Director of Nutrition Services at the 
Kansas Neurological Institute, and as a consultant dietician, 
and as an adjunct professor at Topeka's own Washburn 
University, Go Ichabods. She holds a B.S. in food and nutrition 
and a master's in dietetics and institutional management from 
Kansas State University. Go Cats. She is a registered and 
licensed dietician and a Kansas Health Foundation leadership 
fellow. She has served on the School Nutrition Association's 
Governance Board, the Governor's Council on Fitness, the USDA 
Professional Standards Work Group, and KSU Human Ecology Alumni 
Board, and Dietetics Advisory Board.
    My mother is Barbara Watkins and taught Cheryl's son Craig 
at Logan Junior High and taught her other son Kyle at Seaman 
High School in Topeka. However, my mother did not teach your 
youngest son Mark who he, himself, is now a teacher, as I 
understand. Needless to say, thank you for being here, Ms. 
Johnson. It is a pleasure to have you and it is a pleasure to 
introduce you.
    Chairwoman BONAMICI. Thank you, Mr. Watkins. We appreciate 
all of the witnesses for being here today and we look forward 
to your testimony. Let me remind the witnesses that we have 
read your written statements and they will appear in full in 
the hearing record. Pursuant to Committee Rule 70 and committee 
practice, each of you is asked to limit your oral presentation 
to a 5-minute summary of your written statement.
    I will also remind the witnesses that pursuant to Title 18 
of the U.S. Code Section 1001 it is illegal to knowingly and 
willfully falsify any statement, representation, writing 
document or material fact presented to Congress or otherwise 
conceal or cover up a material fact.
    Before you begin your testimony please remember to press 
the button on the microphone in front of you so it will turn on 
and the Members can hear you. As you begin to speak the light 
in front of you will turn green. After 4 minutes the light will 
turn yellow to signal that you have 1 minute remaining. When 
the light turns red your 5 minutes have expired and we ask that 
you please wrap up your testimony.
    We will let the entire panel make their presentations 
before we move to Member questions. When answering a question 
please remember to, once again, turn on your microphone.
    I first recognize Dr. Ochoa.

     STATEMENT OF DR. EDDIE OCHOA, ASSOCIATE PROFESSOR OF 
    PEDIATRICS, UNIVERSITY OF ARKANSAS FOR MEDICAL SCIENCES 
  COMMUNITY PEDIATRICS MEDICAL DIRECTOR, ARKANSAS CHILDREN'S 
                            HOSPITAL

    Dr. OCHOA. Thank you very much, Madam Chair Bonamici and 
other members of the House Committee on Education and Labor for 
the opportunity to submit this testimony. My name is Dr. 
Eduardo Ochoa and I am a general pediatrician practicing at 
Arkansas Children's Hospital in Little Rock. I am also a 
faculty member at the University of Arkansas for Medical 
Sciences, and a principle investigator with Children's Health 
Watch, a non-partisan network of pediatricians and public 
health researchers committed to improving the health of young 
children and their families by informing policies that address 
and alleviate economic hardships.
    I am also a member of the American Academy of Pediatrics, a 
non-profit professional membership organization of 67,000 
primary care pediatricians and medical and surgical pediatric 
sub-specialists dedicated to the health and well-being of all 
infants, children, adolescents and young adults. The testimony 
I give today is on behalf of Children's Health Watch and the 
American Academy of Pediatrics.
    As a practicing pediatrician I know the importance of 
consistent access to nutritious foods for healthy growth and 
development among my young patients. This is one of the main 
reasons why we have been screening for food insecurity and 
other social needs for several years in the primary care 
clinics at Arkansas Children's Hospital. Through this effort we 
have found that about a quarter of our patients are food 
insecure.
    Decades of research has documented the adverse health 
effects of food insecurity on the health, growth, development, 
and educational outcomes of children from infancy through 
adolescence. Naomi is one such patient who we identified as 
having food insecurity. I talked with her mother who did not 
know that I also work at the clinic where Naomi was seen 
recently. Naomi's mom recounted that she was in clinic for 
Naomi's checkup and was surprised that she was asked to 
complete a questionnaire that asked about social needs. She 
responded with two affirmative answers to the hunger vital 
sign, a measure validated by Children's Health Watch and 
endorsed as a best practice by the American Academy of 
Pediatrics.
    Naomi's mother's earnings at work are stretched thin, and 
even though Naomi is fed at her head start program there's 
still worry about whether the food at home will run out before 
she has money to buy more. They left our clinic with a full 
grocery bag and a list of local resources to get more when she 
needed it.
    It is great that we could help Naomi and her family, but 
this help is very short term and childhood hunger and its 
sequelae of adverse health consequences should not have to 
persist in this country. Federal nutrition programs that feed 
millions of children every day are an effective solution for 
both reducing hunger and food insecurity, and improving the 
health and well-being of growing minds and bodies.
    For these reasons I am pleased to discuss the importance of 
child nutrition programs in the United States, including the 
National School Lunch Program and School Breakfast Program, the 
Child and Adult Care Food Program, and the Summer Food Service 
Program. This committee has a unique opportunity to invest in 
our Nation's children by investing in programs that feed 
children from their earliest days through the end of high 
school, setting them up for a health start in life.
    The National School Lunch and School Breakfast Programs 
feed 30 million children healthy meals each school day across 
the country. Research shows NSLP and SBP are associated with 
numerous benefits for children, including reduced food 
insecurity, improved test scores, lower rates of absences and 
tardiness, improved dietary intake, and lower risk of obesity. 
I know the value of proper nutrition in schools for my 
patients. Many children, especially those from low income 
families, consume up to half of their daily calories at school. 
And for some children, including those whom I see in my clinic, 
the meals they eat at school may be the only meals they eat in 
a day.
    This is why evidence-based meal standards that are age 
appropriate for growing bodies and brains are necessary. In a 
country where obesity affects nearly one in five children which 
places children at greater risk of cardiovascular disease and 
diabetes, healthy school meal are necessary for reversing this 
concerning health trend. In fact, just recently in my home 
State of Arkansas, results were released from a Centers for 
Disease Control funded study on sodium reduction in school 
meals.
    The study was conducted in partnership with 30 schools in 
northwest Arkansas with the goal of reducing dietary sodium 
intake in food service procurement and preparation. The study 
found an 11 percent decrease in sodium content in the meals 
served over the course of a year, and underscored that a 
comprehensive approach to healthier diets through reduced 
sodium is feasible. Given the wealth of evidence on the need to 
increase intake of nutritious foods for health weights and 
prevention of chronic illness I hope this Committee will 
continue to ensure the retention of nutrition standards set 
according to prevailing science.
    Since 2013 Arkansas Children's Hospital has provided 
lunches year round to children as a sponsor site of the Summer 
Food Service Program and the Child and Adult Care Food Program. 
From August 2017 to `18 we provided approximately 27,000 meals 
to children and their siblings seen in our clinics. Because I 
know that many of the children in our service area receive care 
in the primary care clinics at Children's I take comfort in 
knowing that we are asking about food insecurity and have 
several tools, including CACFP and Summer Feeding to help 
alleviate this experience over the summer.
    For young children, WIC and CACFP play an important role in 
ensuring that children have nutritious, age appropriate food, 
and have the best opportunity for brain and body growth. In 
Arkansas my department at the University of Arkansas for 
Medical Sciences runs the Head Start Program in our county and 
gives nearly 2,500 meals per day to children across 13 sites. I 
can tell you that our nutrition director has said that children 
are asking for more vegetables like spinach that they've eaten 
at Head Start for the first time to be purchased at home.
    In summary, Federal child nutrition programs feed children 
every day, preventing them from going hungry and ensuring they 
have a healthy start in life, no matter where they live. 
Investing in these programs is an investment in the future 
health and well-being of our country. I look forward to 
discussing potential policy solutions for strengthening and 
improving these programs so they reach more children. Thank you 
for your time.
    [The statement of Dr. Ochoa follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman BONAMICI. Thank you, Dr. Ochoa, for your 
testimony. I know recognize Ms. Johnson for 5 minutes for your 
testimony.

 STATEMENT OF CHERYL JOHNSON, DIRECTOR OF CHILD NUTRITION AND 
         WELLNESS, KANSAS STATE DEPARTMENT OF EDUCATION

    Ms. JOHNSON. Good morning, Madam Chair, Ranking Member 
Comer, and members of the Committee. I appreciate Congressman 
Watkins for his kind introduction. Thank you for inviting me 
today and for your interest in making sure students have access 
to healthy meals that impact student success. Child nutrition 
programs provide a strong safety net for children by ensuring 
their nutrition needs are met while providing nutrition 
education, and they contribute to growing a health next 
generation which lead the lifelong benefits.
    Decisions about the specific foods to serve and the methods 
of preparation are made by the local school food authorities. 
The USDA final rule child nutrition programs, flexibilities for 
milk, whole grains, and sodium requirements increased many 
planning flexibilities for school year 1920. They include 
providing the option to offer flavored low fat milk, requiring 
that half of the weekly grains be whole grain rich, and provide 
more time to reduce sodium levels. Kansas schools are doing an 
excellent job implementing the nutrition standards and serving 
tasty meals, and have expressed appreciation for these small 
tweaks. Many have indicated they will continue to offer more 
than the minimum required 50 percent whole grain rich products, 
but welcome the opportunity to reintroduce some favorite items 
of students such as homemade macaroni and cheese, and homemade 
chicken and noodles. Industry has been working hard to reduce 
sodium levels in food products. This final rule provides more 
time for research and development of tasty options that 
students will eat. Allowing flavored low fat milk to be offered 
as a milk choice may result in increased consumption.
    As direct of the State agency it is appreciated when 
flexibilities are put into permanent regulation, as opposed to 
being allowed via a waiver. Waivers take a great deal of State 
agency and local educational agency resources to write, 
process, review for approval, and then collect and report data. 
The Health Hunger-Free Kids Act gave USDA the authority to 
regulate other foods in the school environment. Monitoring 
foods outside the school nutrition program has increased time 
required to complete the administrative review, and increase 
the record keeping burden for schools to track that nutritional 
content of foods sold outside the school meal programs. 
Currently, not all food items served as a part of the 
reimbursable meal can be served a la carte. One example as 
school food service director uses frequently is they can serve 
broccoli with limited cheese, a little cheese to make kids 
consume it, but it cannot be sold separately on the a la carte 
serving line. Two sets of standards are confusing.
    USDFNS has adopted customer service as a strategic priority 
and listened to concerns from State agency directors. The 
recent policy memo flexibility for administrative review cycle 
requirements will allow State agencies to request waivers of 
the 3-year requirement and extend the review cycle if it 
hinders State effective allocation of State agency resources. 
This is another instance where a waiver is required, and it 
would reduce State agency burden if it could be put into 
regulation.
    In Kansas, an increasing number of local educational 
agencies are now also implementing the Summer Food Service 
Program and the Child and Adult Care Food Program. To decrease 
burden we are working to develop one application for multiple 
programs instead of three separate applications. Schools 
administering multiple programs have indicated they could 
operate more efficiently if their site review and reporting 
requirements could be streamlined. Burden could also be reduced 
in administering the Summer Food Service Program in rural 
communities and access increased if there were flexibilities 
available regarding congruent meal requirements.
    While many of the child nutrition program regulations are 
the same for all of the three major programs it is challenging 
to streamline when there are miniscule program differences. For 
example, in the Child and Adult Care Food Program meal pattern 
for per-K it requires 1.5 ounce meat alternate. Yet, the meal 
pattern for K-5 in school nutrition programs only requires 1 
point meal equivalent, 1 ounce meal equivalent. Milk, fat, and 
flavor requirements are also not consistent between the 
programs. It is possible to serve a granola bar for school 
breakfast and in the after school meal program, but you cannot 
serve those as a part of the Child and Adult Care Program at 
Risk after School Meal Program.
    It is essential to have a sufficient lead time to work with 
local educational agencies once regulatory guidance is 
received. For example, many schools write menus and begin the 
procurement process for the next school year in the winter of 
the current school year. When policy memos and guidance are 
provided in the spring or summer for the upcoming school year 
it is challenging to implement these and able to have 
competitive procurement and pricing.
    If USDA is continuing their willingness to listen to other 
folks, including State agencies and local education agencies, 
including food service directors, administrators, school 
boards, and parents, and obtain input I do think that this 
makes the reality of policy implementation more effective. 
Schools are leading culture change in instill health habits for 
a lifetime, and child nutrition professionals are leading this 
change to instill the health habits. And we do appreciate your 
willingness to help them efficiently and effectively serve the 
children.
    [The statement of Ms. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman BONAMICI. Thank you, Ms. Johnson, for your 
testimony. I now recognize Ms. Martin for 5 minutes for your 
testimony.

    STATEMENT OF DONNA MARTIN, DIRECTOR OF SCHOOL NUTRITION 
         PROGRAMS, BURKE COUNTY, GEORGIA PUBLIC SCHOOLS

    Ms. MARTIN. Thank you, Chairperson Bonamici, Ranking Member 
Comer, Committee members, and my fellow distinguished 
panelists. I am honored to have the opportunity to speak before 
you today. My name is Donna Martin and I am the director of the 
School Nutrition Program for Burke County Public Schools, a 
small rural district in Georgia. I am also the immediate past 
president of the Academy of Nutrition and Dietetics, and we are 
committed to strong nutrition standards for school meal 
programs.
    School nutrition programs are essentially like running a 
restaurant, a PR agency, and a nutrition education campaign all 
while operating under a tight budget with minimal time and 
resources. Being as school food service director is a complex, 
demanding profession, and I think it is the best job on earth. 
I will stress three important points today.
    First, school meal programs can have high nutrition 
standards and be financially solvent. Second, school nutrition 
professionals need access to equipment and training resources. 
And, third, good nutrition for students is critical for our 
Nation's children to succeed. Our program serves five schools, 
offering breakfast in the classroom, lunch, and after school 
snack, and supper, the Fresh Fruit and Vegetable Program, and a 
Summer Feeding Program. We serve nearly 4,000 meals a day, and 
our lunch participation rate is 89 percent, and our breakfast 
participation rate is 78 percent.
    We operate under the community eligibility provision which 
has made running my program more efficient by eliminating 
unnecessary administrative time, paperwork, and cost. We 
started moving to healthier foods in our district even before 
the new standards were required, and you can bet that I was 
nervous. You know we take our fried chicken and grits very 
seriously in Georgia, so we went to work and developed a 
health, nutritious herb-baked chicken, scratch whole grain 
rolls, and locally grown whole grain grits that are absolutely 
awesome. I brought each of you a bag, and I know you'll agree 
that these grits are delicious.
    I am incredibly proud of our farm to school program that 
provides farm fresh produce to our students. We found that when 
we started offering local fresh produce like collards, berries, 
and peaches, our fruit and vegetable consumption rates doubled. 
From scheduling recess before lunch, to providing choices so 
students can select the food they like, we manage to keep our 
food waste low, but we would love to see children have more 
time to eat their meals. My own grandson tells me he doesn't 
have enough time to finish his food in school.
    Since the last time I spoke before the committee the Smart 
Snacks rule has been implemented. In Burke County I have been 
able to find almost any product that you can image to meet the 
criteria. We even offer items like ice cream and cookies that 
meet the standards and the children love them.
    We need to protect our nutrition standards from loopholes 
that would undermine the intent of the Smart Snack Program. I 
am proud of how we have meet the needs of our community. When 
our high school football coach came to me with concerns about 
his players not getting the fuel they need to be successful, we 
worked together to provide dinner after school while our 
tutoring enrichment programs were running to make sure the 
athletes and other students were well-nourished. Not to say it 
was not challenging. The supper program can be administratively 
burdensome since the lunch and supper programs are overseen by 
two different State agencies.
    Like many communities around the country our rural 
community faced challenges in delivering summer meals to kids. 
Traditional feeding sites simply did not meet all of our needs. 
The community and district worked together to find solutions 
and we now run 15 summer bus routes feeding over 2,500 children 
daily. We also provide the food for programs in the community 
that are operating summer enrichment programs like vacation 
bible schools and the public library.
    So what is the cost of running a successfull program you 
ask? I am not here to tell you that it is easy. Feeling the 
strain of labor and insurance costs myself, but I am here to 
tell you that it is possible to meet nutrition standards and be 
financially solvent. We are fiscally sound because we offer 
seasonal fresh produce. We work with the Burke County farmers 
to provide local fruits and vegetables at very competitive 
prices.
    In fact, I have had local farmers beating down my door to 
set up contracts with me. In the school nutrition world we call 
this a win, win, win. A win for the farmer, a win for the kids, 
and a win for our local economy. In Burke County I am lucky to 
have up to date equipment and staff with nutrition expertise. 
While president of the Academy I have visited many school 
districts that did not have the same level of resources as me. 
The Academy created a video and held a briefing for Members of 
Congress to communicate the real need for modern equipment. I 
have provided the video link in my written comments so you can 
see the equipment needs for yourself.
    We could do more for our students nationally if 
reimbursement was increased to accommodate rising food costs, 
and if there were supplemental funding for equipment and 
training needs. But we will do worse for students if we lower 
the bar to accommodate costs by not serving kids what they need 
to thrive. Thank you for listening to my story and for your 
commitment to our Nation's students. I respectfully ask each of 
you to keep children's best interests in mind if you plan to 
move forward with the reauthorization of child nutrition 
programs. Thank you once again, Chairman Bonamici, Ranking 
Member Comer, and all the committee members. I will be happy to 
respond to any questions that you may have.
    [The statement of Ms. Martin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman BONAMICI. Thank you, Ms. Martin for your 
testimony and for the grits. And I now recognize Ms. O'Meara 
for 5 minutes for your testimony.

      STATEMENT OF NIKKI BERLEW-O'MEARA; WILKES-BARRE, PA

    Ms. BERLEW-O'MEARA. Good morning, Madam Chair Bonamici, 
Ranking Member Comer, and members of the Subcommittee, and my 
fellow panelists. My name is Nikki Berlew-O'Meara and I'm a 
proud member of MomsRising from Wilks Barre, Pennsylvania. 
Thank you for inviting me to testify today about the vital role 
school lunches play in my family's life and my children's 
nutrition.
    I am the mother of a 9-year-old named James and a 6-year-
old named Natalie. As a single mom, money is tight for my 
family. Thankfully, both of my children receive free lunch at 
school which is a huge help for us. The National School Lunch 
Program has been a crucial lifeline as I strive to give my 
children the strong, healthy start they deserve. One of my top 
priorities is giving my kids balanced diets to help grow their 
minds and bodies. The National School Lunch Program's nutrition 
standards are a huge help.
    When I drop my kids off at school each morning I know they 
will get a healthy lunch with the vegetables, fruit, whole 
grains, and lean proteins that are essential for their health. 
The lunch they get at school every day is healthier and more 
substantial than the lunch I would be able to pack for them. 
And because enough students in my children's district qualify 
for free lunch, everyone at their school gets them, meaning no 
children have to feel singled out.
    The National School Lunch Program benefits my children's 
nutrition outside of school too. Because I am not paying for 
lunch every day I have a little more money to spend on their 
dinners. Every penny counts in our household. It means I can 
afford healthier options like fresh produce, as well as 
introduce them to new foods. I am always trying to get my kids 
to try new things, which any parent will tell you can be 
difficult, doubly so for kids on the autism spectrum like my 
son. The National School Lunch Program gives me the buffer I 
need to do so.
    As a result, my children eat better and more diverse food, 
both at school and at home. They love turkey tacos and chuck 
roast with potatoes at home, and at school they like to eat 
chicken sandwiches, meatloaf, and mandarin oranges. I have been 
trying for years to get my daughter to try salad and she 
finally tried it at school with her friends. It is good, mom, 
she tells me. We all know sometimes kids listen to their 
friends first before they listen to their parents.
    If we did not have the National School Lunch Program my 
kids' meals would be simpler and less nutritious. We also would 
not be able to afford the occasional discounted movie night, or 
even going out to eat for their birthdays which create precious 
memories for my family. I know what it is like to have to cut 
costs like that. We have endured more difficult periods where 
we had to cut these expenses are more.
    After my divorce things were really tough. The three of 
used SNAP benefits for a while, and I was wearing just two 
hoodies at home when the kids were with their father, setting 
the heat at 55 degrees to save on utilities. During these 
periods the National School Lunch Program was even more crucial 
for us. Simply put, without it my kids would have eaten much 
less at that time in our lives, and they would have eaten more 
meals like pasta and white rice which keep their bellies full, 
but do not provide the adequate nutrition they need to grow.
    The National School Lunch Program provides essential 
support for my children's education as well. It is so important 
to me that they get the best education possible so that they 
can reach their potential and pursue their dreams, and these 
programs are a huge part of that. If my kids did not get the 
food and nutrition they need they would be much more distracted 
at school. They would not be thinking about upcoming vocabulary 
tests or science projects, but instead they would be thinking 
about and wishing for their next meal. Simply put, kids cannot 
learn if they are not getting proper nutrition.
    Because my children get well-balanced meals at school they 
can focus on what matters most, feeding their minds and 
broadening their horizons by working hard in their classes. My 
son has always dreamed of being a teacher, and my daughter 
wants to be both a pediatrician and a veterinarian. They need 
the proper nutritious to realize all of their dreams.
    As the committee discusses the reauthorization of child 
nutrition programs I hope you remember James, Natalie, and 
other families like mine. The decisions this committee makes 
will have a significant impact on working families and whether 
we will be able to set our children up for future success. 
Child nutrition programs need to continue to be well-funded, 
supported, and improved, not only for my kids but for the other 
children at their school who have fallen on much tougher times. 
My kids deserve healthy food and all kids deserve healthy food 
regardless of how much money their parents make. These programs 
are a crucial part of ensuring their very basic needs are met. 
Thank you for remembering the importance of healthy food for 
our Nation's next generation of children.
    [The statement of Ms. Berlew-O'Meara follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman BONAMICI. Thank you so much for your testimony. 
Under Committee Rule 8A we will now question witnesses under 
the 5-minute rule. As chair, I will recognize myself first, 
followed by the ranking member of the full committee, and then 
we will alternate between the parties. I now recognize myself 
for 5 minutes.
    Ms. Berlew-O'Meara, thank you for sharing your story. I 
know from working at Legal Aid that families do not struggle by 
choice, and children should not suffer because families are 
struggling. In your testimony you state that because enough 
students in the district qualify for free lunch everyone at 
school gets them, meaning your children do not feel singled 
out. This describes a provision added in the Health Hunger-Free 
Kids Act of 2010 known as community eligibility. Why is that 
important to you and your children?
    Ms. BERLEW-O'MEARA. It is important to me and definitely to 
my children as well because I do not want them to feel singled 
out. I do not want any child to feel singled out because kids 
talk, and they may find out, oh, this child gets a free lunch. 
This kid's parents cannot afford to pay for it. They have 
enough to worry about. We don't--I just do not feel we need to 
have them be worried about what their parents make and do they 
qualify for these things.
    I know just from my own experiences at school and from my 
mother's experience at school that can be really difficult for 
children to deal with, and they have already got enough on 
their plate. We do not need to be adding more.
    Chairwoman BONAMICI. Thank you. And I am going to followup 
with Dr. Ochoa about this issue too. We heard, Dr. Ochoa, we 
heard a little bit about school meal participation rates, and I 
want to highlight a study conducted by the University of 
Washington's School of Public Health, itound that new standards 
put in place after Healthy Hungry Free Kids Act increased 
access to whole grains, vegetables and fruits, they found that 
while the nutritional qualify of school meals improved after 
new requirements went into effect, the standards did not affect 
school lunch participation. So we know that there are many 
complicated factors that impact participation rates, and it is 
important to examine the entire picture.
    And I have to say I am pretty alarmed by the President's 
budget proposal to cut 1.7 billion dollars from child nutrition 
programs. A cut of that magnitude will certainly affect 
participation rates and result in fewer children accessing 
meals. Can you comment on how changes to community eligibility 
might impact participation?
    Dr. OCHOA. Yes. I would think that community eligibility is 
important not just to keep more kids fed and keep them out of 
food insecurity, but also to prevent healthcare costs in the 
long run. Children's Health Watch has done research showing 
that the longer that food insecurity persists there are chronic 
health issues that are worse and developmental issues that are 
higher in kids that are food insecure than those that are not.
    My colleagues at Children's Health Watch, Drs. John Cook 
and Anna Poblacion created an economic simulation model where 
they showed that CEP alone moved about three quarters of a 
million people from food insecurity to food security. And so we 
know that if food insecurity costs our Nation nearly $178 
billion a year it would make sense to invest in that as a 
preventive measure to prevent health care costs in the future.
    Chairwoman BONAMICI. Thank you. I am going to move to 
another question, but thank you so much for that. Ms. Martin, 
in Oregon there are more than 800 summer food service sites. 
Thank you for talking about the Summer Meals Program. I visited 
one that serves 30,000 summer meals, but even with that number 
the district knew they were not reaching all the families in 
need, and that kids were going hungry over the summer.
    There has been a pilot program in Oregon that has been very 
effective helping to bridge the gap. Can you describe some of 
the challenges your community faces in rural areas and serving 
summer meals, and what more can we do to make sure that 
students do not go hungry during the summer months?
    Ms. MARTIN. Well, thank you for that question. I think food 
security in my district is a huge issue and we find out that 
when kids come back from just the weekends or a holiday they 
are racing into the cafeteria to eat breakfast or eat lunch. 
They are so hungry. We had teachers who were putting kids into 
summer school not because they needed to go to summer school, 
but to make sure they had healthy meals over the summer. So 
because we have a large rural community we had a need, and we 
did not have any way of reaching the kids. They did not have 
transportation to come to our schools or come to our site so we 
came up with the idea of doing these school busses.
    So the school busses go out all over the community. They 
stop at about 105 different stops. The kids get on the bus. 
They eat the healthy meal. They finish their meal and they love 
the fact that their bus is air conditioned because a lot of our 
kids do not even have air conditioning in the summer. So they 
get on the busses. We provide some books for them on the bus so 
that they have an opportunity to read on the bus. They get off 
the bus and they go home.
    Chairwoman BONAMICI. That is a great model. I want to try 
to get one more question in. Dr. Ochoa, how do strategies like 
the Summer EBT Program work in concert with the Summer Food 
Service Program to improve access to nutritious meals?
    Dr. OCHOA. It does work very well to improve access, and I 
think the point that Donna was making is a good one. We know 
that only one in seven kids that participate in school lunch 
during the year participate during the summer. So we know that 
anything that can increase access over the summer is good 
because there are nearly 17 million kids who are eating free 
and reduced lunch at school during the school year that do not 
get it during the summer.
    Chairwoman BONAMICI. Thank you. And thank you for also 
recognizing that this is a health care issue, and that it is a 
good investment and we are actually preventing more expenses in 
addressing health care later, so appreciate that long term 
approach. And I now recognize the Ranking Member of the full 
committee, Dr. Foxx for her questions.
    Mrs. FOXX. Thank you, Ms. Bonamici, and I want to thank the 
witnesses for being here today and presenting their testimony. 
Ms. Johnson, every time I am in a school, and I am in the 
schools a lot, I am always careful to go by the cafeteria and 
say thank you to the food nutrition people because I know they 
struggle to keep up with the rules and regulations, and provide 
those good meals to the students every day. So please convey to 
them my thanks. I do that myself personally when I can.
    I want to thank you for helping us get a better idea of 
what all the requirements and rules mean for people doing the 
real work. While some of the paperwork is necessary for 
compliance and accountability I think you implied there is too 
much paperwork, but if you would talk a little bit more about 
that? And could you share some examples of paperwork that makes 
the program overly burdensome?
    Ms. JOHNSON. Yes, I would be happy to do that because our 
focus is on feeding kids, and there are somethings that I think 
could be reduced paperwork wise and still maintain integrity. 
Things like waiver. Having waivers takes a lot of time for us 
to write waiver applications, approve waivers, and then we have 
to collect data on waivers, and then we write reports on 
waivers.
    CEP reporting, community eligibility is a great program, 
but there is a reporting requirement for schools even below the 
40 percent ISP threshold that could never apply. They still 
have to do notification reporting. That could ease some burden. 
The site monitoring. When multiple child nutrition programs are 
being administered, like at our Wichita school district. They 
have hundreds of monitoring reviews that they have to complete 
because they run every single program that we have in many, 
many sites.
    Summer reporting data is extensive. I know it is helpful, 
but it quite a chore for the State agency. Illuminating those 
nuances between the child nutrition programs. There is this 
little thing, about 80 percent of regulations are the same for 
all programs. There is this 20 percent difference that makes it 
so difficult for a director of multiple programs. They want to 
be in compliance. They want to do the right thing, but just to 
streamline that would be so helpful.
    And then we do have a paid lunch equity tool that also can 
cause some burden. The flexibility that was recently enacted 
for school districts in a positive financial status is 
extremely helpful in Kansas, and I do appreciate that. So there 
are a few examples.
    Mrs. FOXX. Thank you. You also mentioned that USDA seems to 
be more customer friendly and really listen to you and your 
colleagues. Can you tell us a little bit more about what you 
mean and discuss why that mindset's important for the success 
of the programs?
    Ms. Johnson. Absolutely. USDA has been taking a very 
customer service stance in the last few years, especially. They 
are listening. They have put together a committee of State 
agency directors who are giving input on how paperwork can be 
reduced. Extremely helpful.
    They are more accessible at conferences. I was just at the 
Legislative Action Committee. They met with State directors for 
2 hours, and they allowed us to ask questions and listened. 
They have had work groups prior to final rules being enacted 
for the Child and Adult Care Food Program, also professional 
standards done and I work both on that group. When they listen 
I do think it helps with implementation. When they hear from 
the stakeholders, not just school food service directors and 
State agency, but also parents and administrators, school 
boards, all those folks that have an interest. So there have 
been a lot of examples recently and I applaud them for that.
    Mrs. FOXX. Well, thank you very much and I hope it is not 
just listening, but taking action, particularly on those minor 
little differences that occur. It seems to me that you all 
would be able to convince them to make those modifications so 
that you can devote more of your time to serving the children.
    Ms. JOHNSON. I do think they are listening and I think 
there are, just like with the Summer Food Service Program, 
waivers. They know how important it was to get those approved 
prior to summer starting. In Kansas we had ours in first and we 
got those back quickly. We did not have to change our computer 
systems and then change them back. I do feel like they are 
being very responsive and listening and helping.
    Mrs. FOXX. Thank you, Madam Chairman. I yield back.
    Chairwoman BONAMICI. Thank you, Dr. Foxx. I now call on Dr. 
Schrier from Washington for 5 minutes for your questions.
    Ms. SCHRIER. Thank you, Madam Chairwoman, and thank you to 
all of our witnesses. I am thrilled to have you all here. First 
of all, Ms. O'Meara, I want to tell you that veterinary 
medicine and pediatrics, in many ways, are very similar that in 
that first year our patients cannot talk to us. I am sure Dr. 
Ochoa will appreciate that.
    Also, nutrition is one of the big topics that comes up at 
every well child check, and so I am super grateful for this 
whole discussion and grateful for the food insecurity questions 
that I also ask. And one thing I just wanted to mention because 
I look at these school nutrition programs as having three big 
goals, and forgive me if I am leaving one out. But one is 
simply addressing food insecurity and hunger. The other is 
helping kids do better in school and have better behavior which 
I do not even think we talked about, but that has been proven 
too.
    But the third is really setting them up for a lifetime of 
success and health. And a lot of the conversations that I have 
with patients or with the parents involve how to make kids like 
food. And my typical answer to that is just make food that 
tastes good and there should not be kid meals and adult meals, 
like, feed them curry, feed them Thai food. Give them whatever 
tastes good, and that usually works.
    So I wanted to applaud you, Ms. Martin, for your work in 
making sure food tastes good and wanted to talk to you about 
really having a focus on that because if we can make spinach 
taste good for kids then that means when they are adults and 
they go do their shopping they will buy spinach and know how to 
make it. So could you talk a little bit about that, maybe even 
if any school districts are experimenting with having chefs? 
And even, I was just at a school the other day, I am using up 
all my time.
    I was in a school the other day where they have a school 
garden, but they are not allowed to eat the food from the 
garden.
    Ms. MARTIN. Yes.
    Ms. SCHRIER. And so could you talk about that a little bit?
    Ms. MARTIN. No, absolutely. So we have three things that we 
say in school nutrition. We say if the kids taste it they will 
eat it, so you have got to do a lot of taste testing. So when 
our kids come through the line, and we have hummus on the line. 
They are like what the heck is that, but if you do a taste test 
with it they like it and they eat it, so taste testing is 
really key.
    If they grow it they will eat it. So we have tower gardens 
and we have outside gardens, and our kids plant the seeds, they 
grow the food, and they do get to eat it in the classroom. We 
just cannot serve it school-wide, so if they grow it they will 
eat it. And if they cook it they will eat it. So we have this 
Charlie Cart where we do all these cooking classes. So we take 
what they have grown and turn it into a cooking class, and we 
get kids to eat brussel sprouts and asparagus and all these 
things that nobody thinks they will eat, but they have cooked 
it.
    And I had a middle school student the other day in the 
cooking class said, this was the best day of my life. I could 
have died. A middle school student, really? So it is all about 
getting them involved. So you have got to, you know, talk to 
them about what they want, and you also have to do nutrition 
education. That is what we are not doing enough of. And so my 
very favorite program for that is the Fresh Fruit and Vegetable 
Grant Program where right now we offer 65 different fruits and 
vegetables fresh every day, not at breakfast, not at lunch, but 
in the afternoon. And our kids run in off the bus, come into 
the lunchroom to see the Lucite placard to find out whether 
it's blood oranges or jicama or mushrooms or red bell peppers 
or whatever, what they are getting for the snack that 
afternoon.
    And they go home and their parents call me and they say, 
what is that star shaped fruit you served today? And I said 
starfruit, and then the grocery stars call me and say, would 
you please let me know what you are serving because the kids 
are running in here asking for it and we do not have it. So 
that program needs to be expanded, and it also teaches the 
parents about nutrition. So nutrition education and remember 
those, taste it, cook it, and I cannot remember the third one, 
but anyway.
    Ms. SCHRIER. Prepare it.
    Ms. MARTIN. You got it. Thank you.
    Ms. SCHRIER. Yes, preparing it together. And by the way, 
preparing it together is a great way to connect--
    Ms. MARTIN. Preparing it, right.
    Ms. SCHRIER [continuing]. with teenagers who will not talk 
to you otherwise. So thank you for that perspective, and, also, 
cutting up fruits and vegetables increase consumption for 
people.
    Ms. MARTIN. Oh my gosh. And the other thing is time to eat, 
and people do not really focus on that enough, and they look at 
the trash cans and they say, oh, they threw all this food away. 
It is because they do not have enough time to eat, and so if we 
do not give them enough time to eat. Salads take a lot longer 
to eat than a piece of pizza, and, also, the kids need to go to 
recess before lunch because if you put recess between a meal 
and a kid, recess is going to win every single time. So they go 
to recess. They are hungry. They are thirsty and they eat 
better.
    Ms. SCHRIER. Thank you very much, appreciate it. I only 
have 10 seconds left, maybe next time or at some point we could 
talk about milk, 20 calorie difference between 2 percent and 
whole. Why is whole milk getting such a bad rap? But you do not 
have time to answer so we will talk later.
    Chairwoman BONAMICI. Thank you, Dr. Schrier. I now 
recognize Ranking Member Comer from Kentucky for 5 minutes.
    Mr. COMER. Thank you, Madam Chairman. Ms. Johnson, I know 
most of the food service directors in the First congressional 
District. I worked with a lot of them, as I said in my opening 
statement, when I was Commissioner of Agriculture, and they 
want to serve healthy, tasty food to their students. They are 
very passionate about it and do a very good job, but many 
complain about the excessive regulatory environment, especially 
the changes that were made during the Obama Administration. Do 
you believe the new regulations on grains, sodium, and milk 
help more programs find this balance in their offerings?
    Ms. JOHNSON. I believe that the final rule with the 
flexibilities really are just small tweaks and I do not think 
they undermine the intent of the nutrition standards. I do feel 
that more time is needed by industry to develop products lower 
in sodium so they are tasty and so students will eat them, so I 
really appreciate that flexibility.
    The milk flavoring I think it is nice to have that 
additional choice, although I will be honest, in Kansas, the 
students do consume the skim chocolate and flavored skim fine. 
That does not seem to be a problem. I did not have any waiver 
requests for that when it was a possibility, thankfully. It was 
one thing. But we did get a lot of whole grain rich waivers 
because we have communities in western Kansas in those small 
rural communities who actually make homemade noodles still, and 
you cannot do that with whole grain flour. And we have a lot of 
folks of different cultures. Whole grain tortillas are not 
accepted well by some of the students, so some of them had 
waivers in for just a plain tortilla.
    We had some waivers for pasta because whole grain pasta is 
still not holding well on the serving line. It gets mushy and 
students do not eat mushy, brown macaroni and cheese. I mean, I 
think that as there is more product development happening and 
pasta, whole grain pasta maybe gets to the point that it will 
stand up better. Maybe that will be a good choice. And some 
schools, if they do not have to transport foods long distance, 
I mean, I think it could work for them, but having this 
flexibility is helpful to our rural, small school districts, 
especially.
    Mr. COMER. Ms. Johnson, as we begin the work on the 
reauthorization of the child nutrition programs can you 
recommend a few principles for us to keep in mind to guide our 
work as we move forward?
    Ms. JOHNSON. Yes. Stay the course. I do not think that our 
food service directors and our school food authorities and our 
Child and Adult Care Food Program sponsors and summer sponsors, 
any of them, need the additional chaos of change. They are just 
now starting to feel comfortable and having good understanding 
of those multitude of regulations with the Health Hunger-Free 
Kids Act. They are now being able to start innovative breakfast 
methods. They are now working on farm to plate. They are able 
to expand and try to reach more children in rural communities 
in the summer because they are feeling like, oh, we are 
understanding this and we can do it. So please think about 
that.
    Also, reducing the differences between the child nutrition 
programs so that operators of multiple programs can operate 
them with integrity, and helping them increase access, but yet, 
decreasing their paperwork burden. I truly believe you can do 
that and still operate programs of integrity. And stability, by 
reauthorizing our programs our child nutrition program 
operators they know what the future holds.
    It is really difficult to operate on waivers. Say, for 
instance, for me as a State agency the new 5 year waiver. I do 
not want to reinvent my staff and do all of that when I am 
actually doing fine with resources when I do not even know if 
it would last more than a year. It affects people and that is 
really difficult. So stability is extremely important.
    Mr. COMER. Well, thank you very much and I yield back.
    Chairwoman BONAMICI. Thank you, Mr. Comer. I now recognize 
Representative Hayes from Connecticut for 5 minutes for your 
questions.
    Ms. HAYES. Thank you, Madam Chair, and thank you to all of 
the witnesses who are here today. I am so happy that we are 
holding this hearing because this is a challenge that I have 
dealt with at the local level, at the State level, and now, I 
guess, at the Federal level. I come from a district. I was a 
educator in Waterbury Public Schools for almost 15 years and 
this is something that is very personal for me. My district had 
more than 70 percent of the students who were eligible for free 
or reduced lunch so we participated in the community 
eligibility provision. One of only 13 districts in my State who 
did that, so I know what it means. I know what that looks like 
in the school setting. I know what it means for children and 
families.
    I guess my question would be to Ms. Martin. What would 
you--I mean, we constantly see this provision under attack. It 
was in the last budget there were proposed cuts. We saw in the 
draft of this budget $1.7 billion in proposed cuts to food 
security nutrition programs, and I can imagine that the 
community eligibly provision would fall under this. What would 
you propose to districts who are not taking advantage? We have 
over 160 districts and only 13 of them use the community 
eligibility provision.
    Ms. MARTIN. Well, it is very confusing to me that we offer 
free busing, free books, free computers, free teaching, but 
school lunch is not free to all our students. Why is that any 
different than the rest of the school day? One of my biggest 
jobs as school nutrition director is to provide students to the 
teachers ready to learn. So I have got to make sure they have 
breakfast, and I have got to make sure they have lunch.
    And I have watched what the kids bring in their lunch box, 
and I almost think those are the kids that need to be shamed. 
We have this fabulous school nutrition program and we have got, 
you know, a lot of people think it is just for the free kids 
and it is just for the reduced kids, so what she said is so 
true. When it is community eligibility it is for all the kids, 
and we have got to reduce our burdens on our future healthcare 
costs with obesity and diabetes, and heart disease and all 
these things.
    And I think if we do not get these kids and these future 
generations to start eating better we are never going to get 
there. So the administrative burden for the teachers, the 
teachers have the hardest job in the school. I would last 10 
minutes as a teacher. But they love community eligibility 
because they do not have to collect applications. They do not 
have to decide whether the kid is paid, free, reduced, or has 
lunch money. They do not have to worry about the kid that did 
not bring their lunch money and take money out of their pocket 
to pay for the kids. They do not have to worry about lunch 
boxes being stolen or lunches being stolen.
    So we have the opportunity to make a huge difference in 
these children's lives, and they take it home and make a 
difference in their families' lives. So I say we just need to 
make sure that all programs have the opportunity to do CEP do 
not go back. It is such a profound impact in my district and 
every other district that does it.
    Ms. HAYES. I mean, so once again, I know what I bring to 
this conversation. I was the teacher who had a closet who kids 
came to my room in the morning or I emptied out my own lunch 
or--
    Ms. MARTIN. Right.
    Ms. HAYES [continuing]. my own wallet--
    Ms. MARTIN. Right.
    Ms. HAYES [continuing]. to give them money to go buy a 
snack in the morning.
    Ms. MARTIN. Right.
    Ms. HAYES. This is before we moved to this community 
eligibility provision. Is there anything, because I only know 
what I bring, on the flip side, is there any benefit to cutting 
this provision in the communities where we have, like mine, 70 
percent of our students already receive free or reduced lunch? 
I know what it meant to try to collect these forms where a kid 
was not eligible for $5.
    Ms. MARTIN. Right.
    Ms. HAYES. Not even a huge span.
    Ms. MARTIN. Right.
    Ms. HAYES. You were $1 over the eligibility and it made all 
of the difference. Is there any benefit that I am just not 
seeing to cutting this provision?
    Ms. MARTIN. Zip. Zero. Zilch benefit of cutting this 
program. It would do more harm. And my teachers in the school 
would be devastated, and to get the teachers in support of a 
program is huge. So, no, there is absolutely no advantage and 
our kids deserve healthy meals. And we are a nutrition program, 
not just a feeding program.
    Ms. HAYES. I guess, Ms. Johnson, you talked about in your 
statement about planning for next year and some of the 
challenges with planning that budgetary insecurity means for 
you and the communities that you serve. How would that impact 
the way you plan for the future of your district or the 
communities that you serve, not knowing what is in the budget?
    Ms. JOHNSON. OK. So you mean if community eligibility was--
    Ms. HAYES. Yes.
    Ms. JOHNSON [continuing]. rolled back? Well, we are dealing 
with that right now in the Kansas City, Kansas school district 
they are coming up to the last year that they can go ahead and 
have the program. Their identified student percentages have 
decreased in that school district, and so they are not going to 
be able to offer community eligibility or they are trying to 
figure out a way, but they just really are not going to be able 
to do it financially. And so there is a lot of work that is 
going to have to be done in educating--
    Ms. HAYES. So without the community eligibility the food 
program goes away?
    Ms. JOHNSON. The food program will not go away, but it 
will, again, be based upon their free, reduced eligibility 
status. And so now we are educating parents about what that 
means. So, again, that stability is important and the changes, 
it really is an issue that we have to deal with at the State 
and local level.
    Ms. HAYES. Thank you. I yield back.
    Chairwoman BONAMICI. Thank you. I now recognize 
Representative Thompson from Pennsylvania for 5 minutes for 
your questions.
    Mr. THOMPSON. Chairwoman, thank you so much. Thank you for 
hosting this very important hearing too. Thanks for all the 
witnesses here providing your testimony. I have found it all 
very helpful. Nutrition is important to me. Last term I was the 
chairman of the nutrition subcommittee on our agriculture 
committee, and I am a former, or as I like to say it, a 
recovering school board member. And I know that, you know, from 
all different perspectives. You know, my family, my wife and I 
when we were first pregnant with our first child we were in the 
WIC program and we were eligible for that and we needed it. It 
was important.
    And I just want to speak to the whole issue of kids 
standing out. There is no excuse for that today with EBT cards. 
School districts are failing and In fact, the legislation we 
put forward to reform the current law, and it did not, 
unfortunately, did not go anywhere a few years ago we addressed 
that because there are technologies today that whether you are 
paying yourself or free or reduced that there are ways to do 
that and school districts should be doing that in a way that, 
you know, we do not allow kids to stand out and to be 
discriminated against. There is no excuse for that when schools 
do that today.
    Also, I understand the challenges of administering a school 
nutrition program. I mean, I think it is the only part of our 
school budgets where we expect you to cover all your own costs, 
and yet, we hold you to these high standards dictated from 
Washington, not all bad, but it is just it does not work, 
frequently does not work. And quite frankly, I believe that 
hunger is preventable.
    And so we need a significant review and changes to the 
Health Hunger-Free Kids Act that was passed in 2010. I was here 
for that. That review is long overdue. Some of the lessons we 
have learned from it, quite frankly, I don't care how you set 
the nutritional standards. If the food is not eaten it is not 
nutritional, period. Caloric intake, portion size varies by 
kids. Sixty pound girls and 200 pound linebackers and there is 
a difference there, so the cookie cutter approach with 
Washington standards have failed a lot of kids.
    We have, you know, standards that deny science can have 
devastating consequences. We have seen that on milk. Empowering 
our school-level nutrition professionals with flexibility will, 
I believe, best meet the children's nutritional needs. You 
know, one of those unintended consequences from the 2010 
standards was the impact on milk consumption, and I am glad to 
hear observations that some of you some of you--have not seen a 
decrease in consumption, but let me share you what has happened 
Nation-wide.
    You know, milk, as we know, is the No. 1 source of nine 
essential nutrients in young Americans' lives, and provides 
more health benefits, including better bone health, lower blood 
pressure, reduced risk of cardiovascular disease, reduced type 
2 diabetes, and now we know that milk fat in whole milk, in 
particular, can help to reduce obesity. I actually believe 
since 2010 with what did out of this Committee, we decreased 
milk consumption to the point--and it is always going to get 
replaced with something, but today, most of it is replaced with 
empty calories, really contributing toward greater childhood 
obesity. So that is why it is really important that we have 
this conversation and we look at these standards, and that we 
let science guide us and make sure that it is good science.
    Milk is a source of three out of the four under consumed 
nutrients: calcium, potassium, and vitamin D. And no other 
berries naturally comes closer to this level of nutritional 
value. But since from 2014 to 2016 schools served 213 million 
fewer half pints of milk, you know, despite the fact that the 
public enrollment was growing. Now, I actually think they 
counted some of the half pints that were taken that we force 
our kids on free and reduced to take, but after their first 
milk experience with non-fat milk, and that is great that some 
kids might like that, but quite frankly, it is chalk water, as 
a milk drinker, and non-fat chocolate is just disgusting. Some 
of those things that got counted as consumed did wind up in the 
garbage can, based on a bad milk experience.
    We know that children over 4 years or older not meeting the 
recommended daily servings of dairy in the dietary guidelines. 
And I have three articles just I want to submit, ask unanimous 
consent to submit for the record. These are studies from TUFT, 
from Harvard, and one from McMaster University dealing with 
that.
    Chairwoman BONAMICI. Without objection.
    Mr. THOMPSON. Actually, I apologize. I acted like I was in 
the Senate. I filibustered on this. I did not even get around 
to asking my question on it, but my point is that I am glad we 
are looking at this. Madam Chair, I really appreciate your 
leadership on this, and we need to let science guide us because 
hunger is preventable, nutrition matters, and I think we can do 
a better job opening up these standards and updating them.
    Chairwoman BONAMICI. Thank you for your questions. I now 
recognize Representative Lee from Nevada for 5 minutes for your 
questions.
    Ms. LEE. Thank you, Madam Chairwoman, and thank you all for 
coming here. You know, with a significant amount of our 
Nation's kids participating in the school lunch and school 
breakfast program, I represent Clark County, Nevada, the fifth 
largest school district. Over 68 percent of the students 
qualify for free and reduced lunch, so I certainly appreciate, 
first of all, how important it is that the calories that our 
children consume pack as much nutritional punch as possible, 
but also understand I met with many food service employees this 
week how incredibly complicated the process is, especially on a 
limited budget. And not only that, especially with respect to 
the breakfast program where it is done, at least in Clark 
County, in the classroom, making it as convenient as possible.
    But currently our standards right now do not address sugar 
content in school breakfast and do not require a protein. And 
when you look at the various breakfast meals that are served to 
children it is not uncommon to find breakfast that can deliver 
between 40 and 50 grams of sugar in one sitting which 
translates to ten to 12 teaspoons of sugar, far greater than 
the two to three teaspoons that is recommended for children by 
the American Heart Association.
    So, Dr. Ochoa, I wanted to ask you, can you speak to the 
importance of limiting added sugar within the diets of our 
Nation's young children, and how increased sugar intake is 
linked to serious health issues during subsequent development?
    Dr. OCHOA. Yes, absolutely. Our Academy of Pediatrics 
recommends, going back to the milk issue and talking about 
sugar, that low fat or non-fat unflavored milk is really the 
way to go because it removes two things, sugar and saturated 
fat, that we know are leading risk factors for a whole host of 
adult problems like obesity, cardiovascular disease, stroke, 
high cholesterol and things like that. So, the sugar content in 
food that is served at school is certainly a contributor to 
excess calories that kids do not need.
    We talk about the first 1,000 days of life and the 
scaffolding effect that the nervous system goes through to 
develop to get a child from zero to three ready to go to 
school. I like to think of the different meals that we provide 
at different ages through these programs that we are talking 
about as a scaffolding as well that we have to adjust both the 
nutrient and caloric makeup of those meals to have kids get the 
right things at the right time so they can thrive through 
school, not just for grade-level reading, decreased behavior 
problems like Ms. Schrier mentioned earlier, but just overall 
better performance in school. And I think taking the sugar, the 
excess sugar out where we can is very important.
    Ms. LEE. Yes. Thank you. I was going to ask about, 
obviously, the rollback, the regulatory actions on the rollback 
which now allow for flavored milk, low-fat milk instead of milk 
which, in some cases, can add another 18 grams of unnecessary 
sugar to a child's diet. Dr. Ochoa, in line with what you 
mentioned in your testimony about ensuring the benefits of 
consistent access to nutritious meals for children, do you have 
any recommendations for this legislative body on how we can do 
a better job of regulating sugar intake within these nutrition 
programs, again, also recognizing the complexity that Ms. 
Johnson and Ms. Martin have in actually implementing this as 
well?
    Dr. OCHOA. Yes. Well, I will agree with Mr. Thompson that 
science is very important, and so the prevailing science that 
is out there to undergird what we serve our children in these 
various programs that we are talking about is very important. 
The science that is developed is from the National Academies, 
and as somebody who has served on a National Academy review 
before I can tell you that the makeup of those committees is 
done very carefully, and the input that those committees get is 
very wide and deep.
    Our committee went to places like Arkansas, Louisiana, 
Chicago to get input from the community on adolescent care, and 
so I know that the science that is coming out of the National 
Academies, just like the guidance that came out last week on 
sodium and potassium is really rooted in the prevailing science 
of the times. So, I think, if anything, the committee should 
look at the science that comes out of bodies like the National 
Academies in addressing the composition of what we feed kids.
    Ms. LEE. Thank you. I agree. I think that definitely it is 
crucial that our nutrition standards are aligned with science 
and research, so thank you very much.
    Dr. OCHOA. You are welcome.
    Ms. LEE. Thank you all for your testimony. I yield.
    Chairwoman BONAMICI. Thank you, Representative Lee. I now 
recognize Representative Johnson from South Dakota for 5 
minutes for your questions.
    Mr. JOHNSON of South Dakota. Thank you, Madam Chairman, and 
I would just note to the panelists that, I mean, I grew up in a 
family that was of modest means, and certainly there were times 
when we availed ourselves of the free and reduced school lunch 
program, so thank you to the efforts that a number of you have 
made in making sure that we have got programs that do a good 
job of delivering those nutritional benefits to families like 
mine.
    Both the gentleman from Pennsylvania, as well as the 
honorable doctor from Washington started to ask about whole 
milk, but ran a little short on time, so I'll lend my voice to 
theirs. Mrs. Johnson, can whole milk be part of a nutritional 
toolbox at the school level?
    Ms. JOHNSON. Whole milk is allowed in the Child and Adult 
Care Food Program up to 2 years where the science supports 
that. Again, our program regulations are based on the current 
science, and so that we follow what the science standards 
regulate. So I do not know that I can tell you personally what 
I feel as a State agency representative, but I can tell you we 
do allow whole milk up to 2 years of age.
    Mr. JOHNSON of South Dakota. So I know there has been some 
studies and the gentleman from Pennsylvania referred to them 
that whole milk, when used properly, can be a part of driving 
down childhood obesity. Is that literature maybe just not 
mature enough yet? And if you prefer I ask Dr. Ochoa I 
certainly can.
    Ms. JOHNSON. I think that would be a good question for the 
Dr.--
    Mr. JOHNSON of South Dakota. Yes. All right, Doc, I mean, 
is this just not a mature level of literature yet?
    Dr. OCHOA. I think that is one way to talk about it. I am 
not aware of the literature that shows a direct connection 
between whole milk and obesity prevention.
    Mr. JOHNSON of South Dakota. OK. Very good. Thank you. And 
then maybe back to you, Ms. Johnson. We have talked a little 
bit about flexibility and how that can help with these 
nutritional programs, but what about in rural areas are there 
any unique challenges that rural areas, rural school districts 
face where flexibility is helpful?
    Ms. JOHNSON. Yes, and I was not able in my time limit to 
talk about the professional standards of rural. The flexibility 
we just received a couple weeks ago now. But I was on the same 
committee as Donna when the professional standards went into 
place and I kept saying, I was one of the few folks from a 
rural area and I kept saying, yes, but how about western Kansas 
or South Dakota or North Dakota.
    We need strong, talented people to run our programs, well-
educated, but reality is in some of the small districts that 
you cannot find people who are able to provide the leadership 
as a school nutrition director that have 3 years of school food 
service experience. So the recent flexibility really does help 
those rural areas.
    We go in and we train and we encourage them to take a lot 
of professional development classes. We encourage them to go 
ahead and further their education when possible, but just to 
have someone able to be out there feeding kids is really 
important in rural areas. So I appreciate that flexibility very 
much.
    Mr. JOHNSON of South Dakota. Excellent. And then maybe for 
Ms. Johnson and Ms. Martin, we have talked about how, you know, 
2 million fewer, I think it is 2 million fewer school children 
are taking school lunches in recent years. I think there has 
been some supposition that is directly linked to these more 
stringent nutritional standards. Is that a fair assumption? 
Maybe Ms. Martin first.
    Ms. MARTIN. I disagree with that assumption. I think that, 
you know, in our district we really worked hard to get the kids 
ready for the standards, and I think a lot of school districts 
did not think that they were going to come about, and so they 
just kind of threw it on the kids. Changes should be gradual, 
like with milk, what we did with milk was we went from whole to 
low fat to 1 percent to skim, and we made sure with our milk 
that we have cold milk. We use plastic bottles and did things 
to encourage the kids to drink the milk.
    So I think with the standards doing it gradually was the 
big difference, but I think what hurt participation was the 
lunch paid equity situation where the meal cost went up and up 
and up and you have a family of four and they were having to 
pay $3 for a meal and that is $12 a day. They could not afford 
it. So I think that is where we saw the decrease in 
participation much more, and I think our kids are getting used 
to the food, our schools and our industry are doing a much 
better job of coming up with innovative ways of preparing an 
innovative food for us to purchase, and so I think that is 
turning around, but I think it was the paid lunch equity more 
than the food.
    Mr. JOHNSON of South Dakota. Ms. Johnson, did she miss 
anything?
    Ms. JOHNSON. I agree completely that it is the paid lunch 
equity regulation. It has outpriced some of our folks who do 
not qualify for free and reduced that are not able then to 
purchase meals at the paid price. That is what we saw in 
Kansas.
    Mr. JOHNSON of South Dakota. Well, Madam Chair, I would 
just note as my time expires that these are great panelists who 
answered in such nice, short, direct bursts that let me get 
through my questions. So thank you very much and I yield back 
the time I no longer have.
    Chairwoman BONAMICI. I appreciate that and I now recognize 
Representative Trone from Maryland for 5 minutes for your 
questions.
    Mr. TRONE. Good morning, everybody. I would just thank you 
guys, again. As Dusty said, these are wonderful, wonderful 
panelists and we have really enjoyed this presentation. It is 
great to see folks thinking long term. I mean, the most 
important thing in long term thinking is about our kids and 
thinking about the next generation, and so often we in this 
body are kind of thinking about today and only today and that 
is not where we need to be, so thank you.
    Parts of my district like Washington County over 60 percent 
of the kids are on free and reduced lunches, and it is not just 
the economic hardship, but it is often single parents. And 
there is no coincidence that area is the real heart of this 
opioid epidemic. So many tragedies have befallen these families 
one after another.
    As you said earlier, so eloquently, it is free books, it is 
free computers, it is free teachers. How would we not have free 
lunch? I mean, my goodness, I mean the engine of a young child 
is running on food, and I have four at home and they eat a lot 
of food. So we really need this, but yesterday we saw the 
administration, you know, cut CEP. It could lead to 1.3 million 
kids not having those free lunches or breakfast.
    What do you see, Dr. Ochoa, as far as the long term issues 
of this food insecurity, but not enough nutrition for their 
development? And what are some of those health consequences 
that later on will manifest themselves?
    Dr. OCHOA. Thank you. Our research from Children's Health 
Watch shows that food insecurity not only exacerbates problems 
that maybe have started in birth, but then will lead to bigger 
consequences in the long term, more hospitalizations more 
emergency department visits, more chronic health conditions. 
And what we are talking about in this hearing to improve the 
reach of these programs not only reduces food insecurity, but 
also promotes healthy growth and development, as you mentioned.
    The door for our hospital to begin to offer food to kids 
who are coming to our clinics was CEP. Our hospital, like many 
academic health centers across the country is in a low income 
part of Little Rock in the shadow of Central High School. So, 
because of the community eligibility provision we are able to 
start with summer feeding and have expanded that to CACFP as 
well, and offer up to 25,000 meals to kids that are at our 
clinics. Our kids sometimes wait three and 4 hours during an 
appointment for a complex health issue. They bring siblings 
with them. So if we can alleviate the food insecurity that they 
have the day they come all the better, but we do know that 
starting early with WIC and all through school, the better that 
you can feed the engine, as you said, kids will not only do 
better in school and be ready to enter the work force later, 
but other chronic health conditions that we can all agree are 
bad like high blood pressure and obesity could hopefully be 
prevented.
    Mr. TRONE. Anything you would like to add, Ms. Johnson or 
Ms. Martin?
    Ms. JOHNSON. I would just like to add that for a period in 
my life when my children were small and I did not work in 
school nutrition but was a consultant dietitian I consulted in 
nursing homes and for hospices, and we kept having to get 
larger wheelchairs, beds of bigger size, dining room table 
chairs bigger, and I was seeing more and more patients under 50 
with obesity, sometimes on dialysis, heart problems, diabetes. 
I have a real passion for child nutrition and public health 
because of that. I do want to prevent that for my 
grandchildren.
    Ms. MARTIN. And I would just like to say we have the 
opportunity to change future generations, and if we wait shame 
on us. Shame on us. I mean, those of us that are in school 
nutrition who see these kids come to school so excited to have 
school lunch, and some of them only come to school because of 
school lunch, and we have got to educate these kids to become 
productive citizens. And with our supper program the only 
reason they stay after school to be tutored is because of our 
supper program. And the reason our athletes are performing 
well, we had malnourished athletes and because we were able to 
offer them supper they won their first ever State football 
championship, and that coach credited the school nutrition 
program. Imagine that, with that fact that they were able to 
perform on the field, and for some of our kids that is the only 
way they are going to get a scholarship to go to school.
    Mr. TRONE. Excellent.
    Ms. MARTIN. So nutrition just impacts much, much more.
    Mr. TRONE. So that is the whole key. That is why so many of 
us love being on this education committee because it is all 
about the investment upfront, the investment in our kids, and 
then the long term payback on better health, better productive 
jobs, tax revenues. All that money comes back multiple times. 
Thank you for your time.
    Chairwoman BONAMICI. Thank you very much Representative. We 
are going to finish the questions from members on this 
subcommittee, including Chair of the full Committee 
Representative Scott before we move to questions from the 
members who are not on the subcommittee. But I did want to note 
that Representative Stefanik was here and is not able to join 
us now. I did want to note that Representative Stefanik and I 
have been working on and continue to work on a Child and Adult 
Care Food Program bill that does extend meals to children who 
are in care, but it also addresses paperwork reductions and 
simplifies participation eligibility requirements. So I want to 
just note that because I am sure that Representative Stefanik 
would have discussed that had she been here. So I now recognize 
the Chairman of the full Committee, Representative Scott from 
Virginia for 5 minutes for your questions.
    Mr. SCOTT. Thank you, Madam Chair. Ms. Martin, as a 
Registered Dietitian you understand the importance of 
prioritizing diets. Can you share some innovative strategies 
that schools are using to serve meals that are nutritious and 
come up to the standards and also delicious?
    Ms. MARTIN. Well, I tell you what, we have been very, very 
creative in doing our meals, and we have worked with the 
students to get input from them, and so we are now doing things 
like walking tacos and Asian bowls and hummus. And we actually 
are trying to fight with these kinds that bring these 
Lunchables that can be less than appealing, and so we have 
started making our own healthy lunchables to compete with them.
    So we offer lots and lots of choices, and when you offer 
lots and lots of choices they pick what they want to eat so 
nothing goes into the trashcan. We also make sure that we cut 
up the fruit so that they have time to eat it, and we make sure 
that we have enough time. So sometimes we have had to add 
vending machines because we do not have enough serving lines, 
and not enough time to get the kids through so we have added 
vending machines to speed up the process.
    We prepackage our salads. People are doing salad bars. 
Salad bars have been huge in the schools. The kids, to see them 
go through the salad bars. They just pile up their plate with 
all these fruits and vegetables and they eat ever bite of it 
because they have chosen it. So it can be done, but we need 
strong nutritional standards. You have to be passionate about 
what you do as a school nutrition director and you have to be 
creative, and so we have got to do a lot of training and we 
have got to get those people in there that want to do it. And 
not because they were a principal that got reassigned to be the 
school nutrition director. Sorry if any of--
    Mr. SCOTT. Thank you. No, we have heard a lot of comment 
about if you have nutritious food it is going to get thrown 
away and I think if you have food that is nutritious but not 
tasty people will be throwing it away, but you have shown how 
you can do both. And can you say another word about why strong 
professional standards are important? The administration has 
given flexibility on professional standards. Why is it 
important to be a fully qualified professional?
    Ms. MARTIN. Well, when you were talking about sugars and 
some of these other things and we talked about whole milk and 
things like this, as a Registered Dietitian Nutritionist I 
understand nutrition, and so it is easy for me to plan meals 
that are low in sugar and are low in fat and saturated fat, and 
I understand the importance of the dietary guidelines. And so I 
know how to do menu planning, but if you bring somebody in that 
does not have those skill sets, honestly, when I am out talking 
about our program and I have parents tell me, well, all I get 
is pizza and french fries and juice is what my kids drink and 
eat every day. It is because they did not have a professional 
that knew how to plan healthy meals, and that is cheap and easy 
and they know the kids are going to eat it so that get away 
with that.
    So I think it is just so important to have, and I think it 
is a huge burden on the State staff to have to train those 
people that do not know anything about nutrition and do not 
meet the standards and do not meet the regulations. And that is 
why I do like a little bit of flexibility with administrative 
reviews. I have been doing this for 25 years. I know what I am 
doing. Do not come see me every 3 years. Go see that new 
director who was the principal and does not know what they are 
doing and give them the help. So I think we need to stay 
strong. In Georgia we are hearing a lot of districts get 
together and have one qualified person be over numerous 
districts, small districts, and that way everybody gets the 
benefit of having somebody qualified.
    Mr. SCOTT. Thank you. Dr. Ochoa, you said you were in an 
area with a summer meal program. We have seen evidence that low 
income students if they do not have activities during the 
summer will actually regress several months, so when they come 
back in September they are worse off than they started. Can you 
say a word about the importance of nutrition programs during 
the summer months to prevent the summer slide?
    Dr. OCHOA. Yes, Chairman Scott, definitely. We know that 
lots of programs that offer educational opportunities for kids 
in the summer are also summer feeding sites. And so the fact 
that they can offer both of those things simultaneously will 
prevent those kids from, A, going hungry for a longer time 
during the summer, and, B, preventing that educational slide 
that you mentioned as well. We have a shelter in Little Rock 
that also has a early childhood program that has a very robust 
education component and also offers meals to those kids.
    Mr. SCOTT. And has the summer EBT program helped in food 
insecurity?
    Dr. OCHOA. Yes, absolutely. Anything that makes it easier 
for the kids to access those programs is helpful.
    Mr. SCOTT. Thank you. The Chairwoman discussed in her 
opening remarks that the National School Lunch Program actually 
began as a national security program. We are still having the 
same problems, 71 percent of young Americans are ineligible to 
serve in the military, some for inadequate education, some for 
criminal records, but a lot for nutritional programs. And I 
will not ask a question, I will just make the statement that 
these kinds of programs can address a national security need as 
well as education and nutrition. So thank you, Madam Chair. I 
yield back.
    Chairwoman BONAMICI. Thank you, Chairman Scott. I now 
recognize Representative Grothman from Wisconsin for 5 minutes 
for your questions.
    Mr. GROTHMAN. Thanks. We will start by asking Ms. Martin, 
but you can pitch in if you want. We have other hearings on 
this Committee and you are asking for higher reimbursement 
rates. The Federal Government, as you all know, is very broke. 
You know, I think we are borrowing 19 percent of our budget, 
and while we certainly have to make sure all children all 
adequately fed I am going to ask you why or to what degree, you 
are from Georgia, right?
    Ms. MARTIN. Yes, yes.
    Mr. GROTHMAN. To what degree have you communicated with the 
Georgia Legislature or your local school districts as far as 
putting money into this program instead of the Federal 
Government, and if you are primarily asking the Federal 
Government why don't you ask the State or local government?
    Ms. MARTIN. Well, you know, I think all school systems will 
tell you they are struggling to pay teachers, and buy books, 
and have busses that are safe, and have public security 
officers, and the requirements upon them are increasing every 
single day. And so I communicate all the time to our school 
board and they see the value of school meals. And I understand 
about the deficit. I am a taxpayer, but I go back to the 
statement I made earlier. We are either going to pay now to 
change our children's eating habits or we are going to pay 
later in health care costs.
    And I honestly do not feel like we are going to have enough 
physicians to meet the needs of the diabetics, heart disease, 
renal failure, high blood pressure and all these issues, 
cancer. All that are related to eating habits, and if we do not 
do it now we cannot afford to do it later. We already have--
    Mr. GROTHMAN. Let me cut you off.
    Ms. MARTIN [continuing]. a great number--
    Mr. GROTHMAN. I mean, I know in Wisconsin we ended last 
year anticipating ending with hundreds of millions of dollars 
of surplus, and when I Google it that is not unique to 
Wisconsin. Because the booming economy, high State sales tax 
receipts, high income tax receipts it is not unusual for States 
to be running big surpluses, and I just wondered why you are 
here asking us for our money rather than the, first of all, 
units of government that are going to have less regulation for 
you. You need less regulation. And, second, that are running 
surpluses. I mean, does the Georgia Legislature not appreciate 
this crisis or do the local school districts not appreciate it 
or why are you not leading with them?
    Ms. MARTIN. Well, I think Cheryl Johnson will tell you 
there are a lot of school districts in the country that are 
running in the red because of economic costs and their school 
boards are having to pick up for the program, and so I think 
that is a struggle. But I think that the State does provide 
some money for health insurance benefits and does provide us 
with guidance and stuff, but I feel like it is a Federal 
responsibility.
    Mr. GROTHMAN. OK. Next question. Doesn't, in general, more 
Federal money mean more regulations? I mean, you kind of 
breathed a sigh of relief when you heard that we were doing 
kind of a little working group on less regulations, and my 
school districts, and I talk about them, all are kind of 
irritated with the Federal regulations. They feel the Federal 
regulations are causing children to throw away their food. 
Would you, Obviously--
    Ms. MARTIN. Yes.
    Mr. GROTHMAN [continuing]. that is part of the Federal 
problem, but would you prefer it if we just took this program, 
found out how much Georgia or any other State received last 
year, give them a check and go away and assume that the local 
people know how to buy nutritious food or do you think we 
cannot trust the local people and we should continue to do 
something other than just write a check? And I will ask Ms. 
Johnson the question.
    Ms. MARTIN. Well, let me absolutely just tell you that, no, 
absolutely, I am totally against that because you cannot have 
50 different States deciding what kind of food they are going 
to serve. The manufacturers could not deal with that. You have 
got to have national standards with all the programs, and you 
do not have qualified people always running these programs, so 
I would be very, very much against that.
    Mr. GROTHMAN. So you do not trust the locals?
    Ms. MARTIN. I don't trust--It is not that I do not trust 
them. It is just that nationally our food manufacturers are 
struggling now because--
    Mr. GROTHMAN. OK.
    Ms. MARTIN [continuing]. the stability that she talked 
about--
    Mr. GROTHMAN. Well, we will switch to Ms. Johnson.
    Ms. MARTIN. Go ahead.
    Ms. JOHNSON. I would have the most concern about the effect 
on our students because if a school district was given just a 
certain amount of money there would be no reason to try to do 
innovative school breakfast. There would be no reason to try to 
feed more kids. They would just want to preserve the funds they 
had. Or say we had a disaster.
    Mr. GROTHMAN. OK.
    Ms. JOHNSON. That would be my major concern too.
    Mr. GROTHMAN. OK. Now I want to get my final thing in here. 
I was so relieved because I was here when President Obama was 
President. I was so relieved when President Trump got in there 
and his folks began to allow flavored milk so people would not 
throw away the milk as much. Are you supportive of President 
Trump, his Administration's initiative to include flavored milk 
as an option for the kids?
    Ms. JOHNSON. I am in favor of children drinking more milk 
in whatever way that happens because I do believe that calcium 
is a nutrient that is not consumed in enough quantity in the 
American diet, especially in teenagers. So that is my stance, 
personally, as a Registered Dietitian.
    Ms. MARTIN. And they never took away the possibility of 
serving flavored milk. We have always been able to serve 
flavored milk. That has never gone away, just for a point of 
reference.
    Chairwoman BONAMICI. Thank you, Mr. Grothman. I now remind 
my colleagues that pursuant to committee practice materials for 
submission for the hearing record must be submitted to the 
committee clerk within 14 days following the last day of the 
hearing, preferably in Microsoft Word format. The material 
submitted must address the subject matter of the hearing. Only 
a member of the committee or invited witness may submit 
materials for inclusion in the hearing record, and documents 
are limited to 50 pages each. Documents longer than 50 pages 
will be incorporated into the record via an internet link that 
you must provide to the committee clerk within the required 
timeframe, but please recognize that years from now that link 
may no longer work.
    Again, I want to thank the witnesses for their 
participation today. This has been an excellent discussion and 
what we have heard has been very valuable. Members of the 
committee may have some additional questions for you, 5 minutes 
goes by quickly, and we ask the witnesses to please respond to 
those questions in writing.
    The hearing record will be held open for 14 days to receive 
those responses. And I remind my colleagues that pursuant to 
committee practice, witness questions for the hearing record 
must be submitted to the majority committee staff or committee 
clerk within 7 days. The questions submitted must address the 
subject matter of the hearing.
    I now recognize the distinguished ranking member for his 
closing statement.
    Mr. COMER. Well, thank you very much for being here today. 
It is very clear from this testimony and all of our past 
experiences that these programs are critical to students and 
families. We know students cannot learn if they are hungry. We 
also know how important these programs are to parents who want 
to give their kids the best opportunities. Thank you, Ms. 
O'Meara for sharing your story and support for these programs.
    We also heard how the paperwork burden and complicated 
compliance issues can cause significant time and money from 
programs that do not have much of either. As we begin 
reauthorization it is critical we make sure the program works 
on the ground, in our school, and for the students. That means 
commonsense rules that are not overly complicated and limited 
paperwork that ensures that the taxpayer dollars are protected 
without wasting them.
    Thank you, again, for being here. Thank you for being on 
the frontlines and I yield back.
    Chairwoman BONAMICI. Thank you, Mr. Comer. I now recognize 
myself for the purpose of making my closing statement. Thank 
you, again, to all of our witnesses for being here and sharing 
your statement stories and your expertise. Today we heard about 
the importance of childhood nutrition programs in combating 
hunger and malnutrition across the country.
    We heard how for too many families the struggle to put 
healthy food in the table undermines their financial stability 
and their children's ability to reach their full potential. We 
also heard about how research and experience demonstrate that 
child nutrition standards and programs are among our most 
effective tools for preventing child hunger and making sure 
that students are able to focus on learning.
    With these child nutrition programs, including the National 
School Lunch Program, the School Breakfast Program, the Summer 
Food Service Program, the Child and Adult Care Food Program, 
and more, Congress has consistently recognized through 
bipartisan support that a quality education includes making 
sure that every child has access to healthy and nutritious 
food. And my list was not exclusive. The Farm to School 
Program, all of those are wonderful programs.
    But our choices are clear. We can either invest in these 
important programs now and support healthy eating in schools 
and do what is best for our Nation's children, or we can cut 
corners and put the well-being of our children and our Nation's 
future at risk. I hope that for everyone here the answer is 
simple. We must continue to strengthen child nutrition programs 
and protect the progress we have made toward providing all 
children with the nutritious food that fuels their health and 
their futures. And this is something that I am convinced we can 
do on a bipartisan basis.
    The United States is a wealthy country. We have the 
resources to reduce hunger and food insecurity. This is a way 
to break the cycle of poverty. This is a matter of basic 
humanity and equity, and it is also a good investment. So I 
look forward to working with all of my colleagues on this 
important issue, and if there is no further business, without 
objection, the committee stands adjourned.
    [Additional submission by Mr. Comer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 11:56 a.m., the subcommittees was 
adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
